HHS/OIG-Audit--"Missouri's Adoption and Foster Care Analysis and Reporting System (AFCARS), (A-07-99-01040)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Missouri's Adoption and Foster Care Analysis and Reporting System (AFCARS),"
(A-07-99-01040)
October 8, 1999
Complete Text of Report is available in PDF format
(897 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our review of the Missouri's Adoption
and Foster Care Analysis and Reporting System. We found that the Missouri Department
of Social Services reported Foster care data to the HHS Administration for Children
and Families that was inaccurate and incomplete. We are recommending procedural
changes to ensure foster care data is accurate and complete. State officials
were in general agreement with our findings and recommendations.